o

NO.

r
-* s.

a

y

Supreme Court, U.S.
FILED

JUN 1 9 2821
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

BRENDA WHITE- PETITIONER - (pro-se)
vs
SOUTHEAST MICHIGAN SURGICAL HOSPITAL
et a I, -RESPONDENT (S)

ON PETITION FOR A WRIT OF CERTIORARI TO
THE MICHIGAN COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

BRENDA WHITE
PETITIONER (PROSE)
30585 SANDHURST DR. APT. 207
ROSEVILLE, MICHIGAN 48066
(586) 773-0251

QUESTIONS PRESENTED

1. Must a court overlook a plaintiff's race in making a decision about her capacity and her right
to defend herself against attempted murder by doctors, hospitals, and attorneys who made
poor legal decisions, motivated by race, political and economic gain (RICO).

2. Must a court overlook evidence of past disciplinary action in another state, against a
podiatrist who made a poor medical decision (or decisions ).

3. Did the lower court abuse it's discretion in not allowing a plaintiff additional time to obtain*
and file, a signed Affidavit of Merit and a Notice of Intent when she made a point of offering
same.

4. Did the lower court abuse it's discretion in not allowing the entry of pertinent medical
records, which clearly demonstrate medical malpractice, and certainly fulfills the requirement
of the Affidavit of Merit.

i

LIST OF PARTIES

All parties do not appear in the caption of the case on the cover page. A list of all parties to the
proceeding in the court whose judgment is the subject of this petition is as follows:

Dr. Gary Docks
Defendant- Appellee

RELATED CASE

Brenda R. White v EDS Care Management, LLC and Travelers Indemnity Company,
Docket No.21-0005 State of Michigan Workers Disability Compensation Appeals Commission.
Judgment entered May 10, 2021

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED

i

LIST OF PARTIES AND RELATED CASES

ii

TABLE OF CONTENTS

iii

INDEX OF APPENDICES

iii

TABLE OF AUTHORITIES

iv

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

2-26

REASONS FOR GRANTING THE PETITION

27

CONCLUSION

28

INDEX TO APPENDICES
APPENDIX A- Order from the Michigan Court of Appeals dated October 28, 2020 denying my
Application for Leave to Appeal. COA Docket No. 354313

APPENDIX B- Order from the Macomb County Circuit Court dated June 25, 2020 denying my
Motion for Relief from Judgment. LC No. 2012-002017-NH

APPENDIX C- Amended Order from the Macomb County Circuit Court dated June 30, 2020
denying my Motion for Relief from Judgment. LC No. 2012-002017-NH

APPENDIX D - Order from the Michigan Supreme Court dated March 30, 2021 denying my
Application for Leave to Appeal. SC Docket No. 162312

iii

TABLE OF AUTHORITIES
CASES
Bulloch v United States, 763 F. 2d 1115,1121 (10, Cir.1985),

24

"Kenner vC.I.R.,387 F.3d.689 (1968); 7 Moore's Federal Practice, 2d ed.,p.512H 60.23..... 25
Illinois v Fred E. Sterling, 357; III. 354; 192N.E.229 (1934)......................

25

Allen F. Moore v. Stanley F. Sievers, 336 III. 316; 168 N.E.259 (1929).....

25

Dunham v Dunham, 57 III. App. 475 (1894), affirmed 162 III. 589 (1896);

25

Skelly Oil Co. v Universal Oil Products Co., 338 III. App 79, 86 N.E. 2d 875, 883-4 (1949);...25.
Thomas Stasel v. The American Home Security Corporation, 362 III. 350; 199 N.E. 798 (1935)25
Liljeberg v health Services Acquistion Corp., 486 U.S. 847,108 S. Ct. 2194 (1988)

25

United States v Balistrieri, 779 F. 2d 1191 (7th Cir. 1985) (Section 455 (a)...............

25

Taylor v. O' Grady, 888 F.2d 1189(7th Cir. 1989)......................................................

25-26

Pfizer Inc. v Lord 456 F. 2d 532 (8th Cir. 1972),........................................................

25

Levine v United States, 362, U.S. 610, 80 S Ct. 1038 (1960),...................................

25

Offutt v United States, 348 U.S. 11,14, 75, S. Ct.ll, 13, (1954)...............................

25

United States v Sciuto, 521 F.2d 842 845 (7th Cir.1996)...........................................

26

STATUTES AND RULES
28 U.S.C. § 1257 (a)..................................................

1, 27

18 U.S.C. § 201.........................................................

1

28 U.S.C. § 455(a)....................................................

25

Balistrieri, at 1202....................................................

26

re village of Willowbrook, 37 III. App. 2d 393 (1962)

25

iv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW

The opinion of the Michigan Court of Appeals, the highest state court to review the merits of
my case appears at Appendix A to the petition and is unpublished.

JURISDICTION

The date on which the Michigan Supreme Court the highest state court to deny discretionary
review of my case was on March 30, 2021 a copy of that decision appears at Appendix D

The jurisdiction of this court is invoked under 28 U.S.C .§ 1257 (a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The UNITED STATES code in Title 18 U.S.C. § 201, provides for the prosecution of public
corruption in the United States of America.

1.

STATEMENT OF THE CASE

This case arises from a workplace injury that occurred on April 12, 2007, when plaintiff Brenda
White, fell down the basement stairs while at work, and she broke her ankle in three places.
(Trimalleolar fracture ). Plaintiff white, was taking care of a closed head injury patient at the
time of her fall. Plaintiffs employer Elizabeth Deluca Spina (EDS Care Management LLC) is an
attorney who had illegal guardianship of the patient that plaintiff Brenda White, was taking
care of, and Plaintiff Brenda White, found out years later that EDS Care Management LLC was
not a licensed care facility after she found out about EDS Care Management LLC case named
Elizabeth Deluca, and EDS Care Management, INC.,Plaintiffs/Counter- Defendants, v Arnica
Mutual Insurance Company, Defendant/Counter- plaintiff. Case no.14-12175. Plaintiff's
workplace injury turned into a State of Michigan workers compensation claim. Travelers
Indemnity Company was the insurance carrier that handled the workers compensation claim
for EDS Care Management LLC.
Plaintiff Brenda White, was referred to orthopedic surgeon Jeffrey Zacharias, from a St. John
Hospital emergency room doctor on April 12, 2007, to do surgery on her right ankle. Plaintiff
Brenda White's now deceased husband Joseph White, was referred to an attorney named
Joseph Dedvukaj, from his prior supervisor Joya Craighead, from Detroit East Community
Mental Health. Plaintiff Brenda White's, surgery was scheduled by Dr. Zacharias, and
attorney Joseph Dedvukaj called plaintiff Brenda white, and her now deceased husband
Joseph White, several days later after the surgery was scheduled, and he told Plaintiff Brenda
White, not to let orthopedic surgeon Jeffrey Zacharias, do the surgery, and he referred plaintiff
Brenda White, to his DEN of THIEVES. Because Plaintiff Brenda White, and her now deceased
husband Joseph White, trusted attorney Joseph Dedvukaj, they took his advise, and they went
to see Dr. Wasim Rathur M.D., and Dr. Rathur M.D. referred Plaintiff Brenda White, to
orthopedic surgeon Hassan Hammoud M.D., and Dr. Rathur M.D. told plaintiff White to come
back to see him after her surgery, and he billed workers compensation for his services. Plaintiff
white, and her husband now deceased husband Joseph White, went to see orthopedic surgeon
Dr. Hassan Hammoud, at his office in Dearborn Michigan, and he also conducts surgeries at
Southeast Michigan Surgical Hospital. Dr. Hammoud, examined plaintiff's right ankle and he
stated that he had a full schedule, and he would not be able to do the surgery. Dr. Hammoud,
billed Workers Compensation for his services, and he referred Plaintiff Brenda White, to Dr.
Gary Docks. Dr. Hammoud, informed Plaintiff White, that Dr. Gary Docks, was a reputable
qualified doctor, because he was teaching students at Southeast Michigan Surgical Hospital.
Plaintiff White, had a right to expect that the hospital would have checked out the doctor to
make certain that he was a qualified ethical surgeon, and that he was the appropriate person
to perform her surgery.
2.

Brenda White, had surgery on her right ankle performed by Dr. Gary Docks on two occasions,
which were witnessed by the student physicians working at the hospital. The students name
were: Julie Kai Lester, DPM, Modupe Aderibigbe, DPM, and Joseph Gatlin,DPM.

The first surgery was on April 27, 2007, for an Open Reduction / Internal Fixation of
Trimalleolar Fracture of the right ankle, and the second surgery was on July 23, 2007, for a
removal of a Syndesmotic Screw in the right ankle, and Endoscopic Gastrocnemeus Recession
of the right lower extremity. The second surgery was not a success, the surgery did not
increase the range of motion in plaintiff white's, right ankle. Dr. Gary Docks, was paid for both
surgeries by Travelers Indemnity Company, because it was a workplace injury, and Travelers
Indemnity Company was the insurance carrier for EDS Care Management LLC.

After the second surgery, plaintiff Brenda White, suffered a number of injuries that are still
ongoing today. The injuries are: Nerve Damage in her throat, Temporomandibular joint, (TMJ),
Sensorineural hearing loss, and Tinnitus. There were five doctors who saw and validated
plaintiff White's, Injuries from the second surgery on July 23, 2007, and one of the doctors was
a State doctor from State of Michigan Workers Compensation, who Travelers Indemnity sent
Brenda White, to see and his name was Dr. Ted Schwartzenfield D.O. The other four doctors
who attended to plaintiff after her injuries on July 23,2007 are: Dr. Adam D.Rubin, M.D; Dr.
Robert E. Brammer, M.D.; Dr. Donald Gary Wolford, M.D.; and Dr. Michael D. Seidman M D.

Plaintiff Brenda White, discovered a case in Arizona against Dr. Gary Docks in which he
committed an almost identical malpractice on a patient. Brenda White, was under the care of
Travelers Indemnity Company, and Dr. Gary Docks, Travelers Indemnity Company, and
Southeast Michigan Surgical Hospital, never filed an Incident report. Dr. Gary Docks, should not
have been practicing. Dr. Docks, was allowed by Travelers Indemnity, to do two surgeries on
plaintiff Brenda White, while all the time Travelers Knew that Dr. Gary Docks had prior license
issues. Due to the fact that plaintiff Brenda White, was injured on the job, and the surgeries
came as a result of the workplace injury. Travelers Indemnity was responsible for plaintiff
White's, care and injuries. Dr. Docks, was paid to do a second surgery on Brenda White, on July
23, 2007, that was not needed with the conscious intent to cause death or great bodily harm.
As evidence by Dr. Gary Docks, and staff not filing an incident report.

On May 4, 2012, Plaintiff Brenda White, served both Defendant-Appellees with a copy of the
Summons and Complaint by Certified US Mail, and both Defendants were served with an
3.

Amended Complaint on May 7, 2012, by Certified US Mail. On June 19, 2012, a copy of the
Certified Mail receipts were filed with the Macomb County Circuit Court. The green copy of the
Certified Mail receipts for the Amended Complaint did not appear in the Register of Action
because Macomb County Former Court Clerk/ Register of Deeds Carmella Sabaugh, indicated
that "I do not need that for the file."

Neither the Southeast Michigan Surgical Hospital nor Dr. Gary Docks responded by the required
date. June 8, 2012. On June 19, 2012, Plaintiff Brenda White, acting in pro-se, attempted to file
a Motion for Default Judgment, which was refused by the former Macomb County Clerk/
Register of Deeds Carmella Sabaugh. A hearing for Motion for Default Judgment was scheduled
on July 9, 2012, by former Court Clerk Carmella Sabaugh, and Judge Edward Servitto, DENIED
the Motion for Default Judgment for both defendants, and the only attorney present was
Christina A. Ginter, the attorney for Southeast Michigan Surgical Hospital. Defendant Dr.
Gary Docks was not at the hearing nor was his attorney Kenneth M. Mattson.

Defendant Southeast Michigan Surgical Hospital attorneys Christina A. Ginter, and Thomas R.
Shimmel, from the Kitch, Drutchas, Wagner, Valitutti, & Sherbrook, P.C. Firm and defendant
Dr. Gary Docks, attorney Robert G. Kamenec, and defendant's former attorney Kenneth M.
Mattson from the Plunkett Cooney firm, defaulted, lied about how they were served , and
committed fraud in order to conceal EDS Care Management LLC, and Travelers Indemnity
Company's involvement in Rico.

Attorney Elizabeth Deluca Spina, owner of EDS Care Management LLC, has a case in the
United States District Court Eastern District of Michigan Southern Division. Case no. 14-12175.
Elizabeth Deluca Spina, and EDS Care Management INC., plaintiffs/ Counter- Defendants, v
Arnica Mutual Insurance Company, Defendant/Counter plaintiff. In 2012, the Washtenaw
County Probate Court appointed attorney Elizabeth Deluca Spina illegal guardianship of a
client. EDS Care Management LLC, is not a licensed attendant care provider company. Deluca
with the client's mother's agreement transferred the client from her prior live-in care facility, to
EDS's facility sometime after May of 2013. This clearly shows that Elizabeth Deluca Spina
violated her sacred oath, and she is involved in a conflict of interest.

Plaintiff Brenda White, submitted a Petition for Writ of Certiorari and a motion for leave to
proceed in forma pauperis, and it was filed on^ February 12, 2015, and given a docket number
4.

of 14-8491. On May 18, 2015, petitioner Brenda White, complied with the order of April 20,
2015 to pay the docketing fee required by rule 38(a) and plaintiff Brenda White, submitted a
petition in compliance with rule 33.1 of the rules of the court. On June 1, 2015, plaintiff's
petition for rehearing was filed. On January 13, 2017, Plaintiff Brenda White's second Petition
for writ of certiorari was filed under docket number 16-7581. On December 3, 2018, plaintiff
Brenda White's third Petition for writ of certiorari was filed and placed on the docket on
December 14, 2018 as case no. 18-7055.

Plaintiff Brenda White, and her now deceased husband Joseph White, filed two Petition for
Writ of Certiorari in the United States Supreme Court on over 21 attorneys, and both petitions
were filed on January 13, 2017 and docketed on January 18, 2017, and printed under docket
numbers 16-7592 and 16- 7593. Case name: Joseph White, et ux., Petitioners v Attorney
Grievance Commissioner of Michigan.

On September 16, 2016, plaintiff Brenda White's now deceased husband Joseph White, filed a
consumer complaint on attorney Joseph Dedvukaj ,for attorney Misconduct and auto insurance
Fraud with attorney general Bill Schuette. On October 5, 2016, former attorney Bill Schuette
sent a letter stating that we have received the information you recently submitted to this office
regarding Joseph Dedvukaj. We are, by copy of this letter, referring your correspondence to the
Attorney Grievance Commission. From the information you submitted it appears that the
agency may be able to assist you. AG# 2016 -0157370. On November 14, 2016, plaintiff Brenda
White, and her husband, filed a Request for Investigation with the Michigan Attorney Grievance
Commission on attorney Joseph Dedvukaj, for his misconduct in the Brenda White v Southeast
Michigan Surgical Hospital and Dr. Gary Docks case; Brenda R. White v EDS Care Management
LLC, and Travelers Indemnity Company; and an Allstate auto insurance claim involving plaintiff
Brenda white, and her husband Joseph White, in which attorney Joseph Dedvukaj committed
fraud. On December 1, 2016 plaintiff Brenda White, and her deceased husband Joseph White,
was send a letter from the Attorney Grievance Commission, stating that the commission will
determine if an investigation is warranted. ACG File No. 16-1401.

On December 21, 2016, Attorney Joseph Dedvukaj, filed an answer to Brenda and Joseph
White's Request For Investigation with Attorney Grievance Commission. Attorney Joseph
Dedvukaj, continues to involve himself in more criminal activity, and more fraud. He seems to

5.

think he is above the law, and no one is above the law. Attorney Joseph Dedvukaj's behavior is
a health and safety risk. On January 25, 2017, the Attorney Grievance Commission sent Brenda
White, and Joseph White, a copy of attorney Joseph Dedvukaj's answer to our Request for
investigation. ACG File: 16-1401. They also, sent a letter that states: RE: Joseph and Brenda
White as to Joseph Dedvukaj, Dear Mr. and Mrs. White: The commission is authorized to
investigate and when necessary prosecute charges of attorney misconduct. After preliminary
investigation and careful review of the materials in this file by the commission's staff, it has
been determined that the matter raised in your Request for Investigation will not be pursued
further. Our office feels Joseph Dedvukaj has answered your allegations adequately. I am
enclosing a copy of the answer for your review. We will take no further action. Please be
advised that this matter is being closed under the authority granted to the Grievance
Administration pursuant to Michigan Court Rule 9.112(C)(l)(a.). I hope that this letter
adequately explains my office's position in this matter.
All documents pertaining to attorney Joseph Dedvukaj have been turned over to the Roseville
Police and added to Brenda and Joseph White's police file at the Roseville Police Department
along with other case documents. Roseville police file no. 200009387.
On June 27, 2017, Plaintiff found fraud on the public Macomb County Court Register of Action
in the Brenda White v Southeast Michigan Surgical Hospital case. The public register of action
states: Case Number 2012-002017-NH Case type: NH- Medical Malpractice- File Date:
5/03/2012- Party Type: Defendants Dr. Gary Docks and Southeast Michigan Surgical HospitalCase Status: Closed- Disposition: Uncontested /Def/ Settled. Case Number 2012-002017- NH
Case Type: NH-Medical Malpractice- File Date: 5/03/ 2012- Party Type: Brenda White PlaintiffCase Status: Closed- Disposition: Uncontested/Def/Settled. The public register of action also
states: Case Disposition Uncontested/Def/Settled: Date 8/20/12- Case Judge: Edward A.
Servitto Jr. This was not listed on the court register of action. This is clearly fraud on the court.
Defendants attorneys has continued litigation in this case for nine years and one month. This
case was never extinguished. All attorneys that Brenda White, contacted refused and conspired
not to take her case. This information represents a fallacy to the public that only benefits
insurance companies and special interest groups. This clearly shows that this action was done
with malice and forethought to benefit special interest groups. It was also done to prevent
insurance companies from having an increase in insurance rates. This is abuse towards pro se
litigants, that only benefits people in administrative authority. Plaintiff Brenda White, also
found fraud in her other case named: Brenda Ford White v O.L. Matthews M.D.et al, on the
Courts register of action in the Wayne County Third Circuit Court it states: Statistical Closures
01/10/2014- Uncontested /Default/ Settled - Case Status: 01/ 14/ 2014 final. Case: 13-013472NH. This case was never settled or resolved. To show a pattern of corruption, plaintiff's now
deceased husband Joseph White, found fraud in his case and a client named Tiffany Wilson's
case, after his wife, Brenda White, found fraud in her cases. The cases are in the Wayne County
Third Circuit Court. The case names are: Joseph White v Detroit East Community Mental, et al,
on the Court register of action it states: Case: 11-011126-CZ - Dismissed by party- 02/07/2013-

6.

File Date: 09/12/2011 -Case Status: Final 02/07/2013 final, and Tiffany Wilson v Carl Coleman
et States: Case: 12-006875-CZ - Statistical Closure 01/18/2013- Uncontested/Default/ SettledFile Date: 05/22/2012- Case Status: 01/ 24/ 2013, Final. The now deceased Joseph White never
dismissed his case, he had been in his case for seven months short of a decade at his time of
death on February 7, 2021, and his case has never been extinguished. Tiffany Wilson's case has
never been settled or resolved, and she did not have a replicable attorney.
Plaintiff Brenda White, filed a motion for relief from Judgment on July 17, 2017, because fraud
was found on the public register of action docket that states: Uncontested/ Def/ Settled. On
July 17, 2017, Judge Edward Servitto Jr. issued a signed order to plaintiff, that states: Plaintiff's
Renewed Motion For Relief From Judgment Is Denied For The Reasons Stated On The Record
And Plaintiff Shall Pay Southeast Michigan Surgical Hospital And Dr. Gary W. Docks Each
$250.00 Within 14 Days Of This Order.
Plaintiff Brenda White, went to the Macomb County Circuit Court Clerks office on numerous
occasions to request a true and attested copy of the order, and plaintiff found out that the July
17, 2017, order was not a valid order, because the order was never received for filing in the
clerks office, the order was never entered by the clerk into the court record, and the order was
never enforced or filed in the clerks office.

On July 18, 2017, Robert G. Kamenec, from Plunkett Cooney Law Firm, who is the attorney for
Dr. Gary Docks, sent plaintiff a copy of a letter addressed to the clerk of the Macomb County
Circuit Court, with a copy of a notice of presentment and a proposed order. The letter to the
clerk states: Dear Clerk: Enclosed for Filing please find a Notice of Presentment with proposed
Order denying Plaintiff's Renewed Motion for Relief from Judgment and Awarding Costs, and
Proof of Service. If no written objections are received within seven (7) days, please submit the
order for entry with Judge Servitto, and return three true copies to the undersigned in the
enclosed self- addressed stamp envelope. Sincerely, Plunkett Cooney, Robert G. Kamenec.

On July 21, 2017, plaintiff filed in the Macomb County Court an Objection to the order
denying plaintiffs Renewed Motion For Relief From Judgment and Awarding Southeast
Michigan Surgical Hospital And Dr. Gary Docks Costs. Plaintiff, contacted the Macomb County
clerks office, and she was told by the clerk that attorney Robert G. kamenec, did not send the
clerk a copy of a letter or a copy of a Notice of Presentment with a proposed order instructing
the clerk to submit the order for entry within seven days if no written objections were received
within seven days from plaintiff Brenda White. So, there was no order entered on the Macomb
County Register of action under lower Court docket: 2012-002017-NH
7.

J

*

4

'?•

t

!

!

On August 17, 2017, plaintiff filed a motion for reconsideration in Macomb County Circuit
Court. On August 31, 2017, a copy of the denied order was sent to plaintiff Brenda White.
Plaintiff went to the clerks office, and the clerk stated that the order was not filed in the clerks
office and not entered on the record.

On July 20, 2017, plaintiff Brenda White, gave an inquiry letter to former Macomb County
Clerk/ Register of Deeds Karen Spranger, asking her if she could verify that Judge Edward
Servitto's order dated July 17, 2017 and August 31, 2017, was never entered on the record, and
never received for filing in the clerks office. Plaintiff asked former Clerk Karen Spranger, to
verify other questions in regards to EDS Care Management LLC and Travelers Indemnity
Company.

On October 16, 2018, Former Macomb County Clerk/ Register of Deeds Karen Spranger, visited
plaintiff Brenda White, and her husband Joseph White, in their home to discuss Court and
Union Corruption.

On November 14, 2017, Karen Spranger, wrote a letter to plaintiff stating that she was going to
do an inquiry and review the Content of plaintiff Brenda White's complaint on facts and
allocated analysis of case facts.

On November 30, 2017, Karen A. Spranger, Former Macomb County Clerk/ Register of Deeds
did a reply to Investigation report, and she stated she found Fraud On The Court, she made
statements that she found that the Macomb County Circuit Court, Wayne County Third Circuit
Court, Michigan Court of Appeals, and Michigan Supreme Court, are all complicit in fraud to
deny meaningful access. She made other statements that Uncontested/ Def/Settled -file date:
05/03/2012 and case Disposition Uncontested/ Def/ Settled - 08/20/2012-closed -Case Judge:
Edward A. Servitto Jr. was placed on the register of action was improperly and done with intent,
and show false statements in the court files, and the orders from July 17, 2017, and August 31,
2017, from the Brenda White v Southeast Michigan Surgical Hospital and Dr. Gary Docks Case
were not valid true orders, were not received for filing from Judge Edward Servitto's court
clerk, and was not entered by the clerk into the court record. Also, in her investigation she
stated she did not authorize her stamp to be placed on two fraudulent orders dated July 17,
2017, and August 31, 2017, and that the Brenda R. White v EDS Care Management LLC and
Travelers Indemnity case is a Companion case to Brenda White v Southeast Michigan Surgical
Hospital and Dr. Gary Docks Case, as stated in the Macomb County Circuit Court register of

8.

'f

*

>

:

i

r

r

i

action docket # 2012-002017-NH. Karen Spranger, made statements that Former Court Clerk/
Register of Deeds Carmella Sabaugh, was complicit in fraud and set up a default to conceal
corruption. Fraud was found by Karen Spranger, in four other cases and they are: Brenda R.
White v EDS Care Management LLC and Travelers Indemnity Company; Brenda Ford White v
O.L. Matthews M.D. et, al,; Joseph White v Detroit East Community Mental Health, et al,; and
Tiffany Wilson v Carl Colman et al,. She found that all of the cases listed above was improperly
and done with obvious intent, and it caused inappropriate register of action false statements.
Former Court Clerk Karen Spranger, stated that plaintiff Brenda White, and her husband Joseph
White, were both charged illegal filing fees in their cases in this unusual circumstances of
fraudulent dismissal, by the Michigan Court of Appeals, Michigan Supreme Court Clerk's office,
Judge Michael J. Talbot, Judge Elizabeth L. Gleicher, Judge Joel P. Hoekstra, District
Commissioner Mark Stoddard, attorney Linda Garbarino, and attorney Robert G. Kamenec.

On April 16, 2018, Plaintiff Brenda White, hand delivered a Complaint/ with attachments to
Macomb County Court Administrator Julie Bovenschen, and filed a copy of the documents in
the Macomb County Circuit Court register of action, On May 3, 2018, Administrator Julie
Bovenschen, sent a reply letter to plaintiff Brenda White that states: Re: white v Southeast
Michigan Surgical Hospital, et al Dear Ms. White: I am receipt of your letter and
correspondence from April 16, 2018, After reviewing the register of action, I see no
irregularities. Your case has been resolved and closed. Your post- Judgment motions and
appeals have been heard and resolved. Any further complaints may be made to the State Court
Administrative Office, a copy of plaintiff's Complaint with attachments and reply from Julie
Bovenschen, was filed in the Michigan Court of Appeals under docket: 339587 and the Michigan
Supreme Court under docket: 157197.

The reply letter from Macomb Circuit Court administrator Julie Bovenschen, is criminal and
more fraud on the court. This is clearly an example of abuse of authority, directed towards
pro- se litigants.

On October 24, 2017, Plaintiff Brenda White, mailed two checks to the Michigan Court of
Appeals Grand Rapids Michigan office, to Chief Commissioner Mark Stoddard. Plaintiff was
given a post office receipt with an expected delivery date of Thursday October 26, 2017. The
Checks was for two cases that was filed in the Michigan Court of Appeals. The case names are:
Brenda White v Southeast Michigan Surgical Hospital and Dr. Gary Docks; Brenda Ford White v
O.L. Matthews M.D. et al,. The Michigan Court of Appeals, sent an order to plaintiff stating the

9.

filing fees was due on or before November 8, 2017, failure to comply with this order will result
in the dismissal of the appeal. On Friday October 27, 2017, plaintiff Called Chief Commissioner
Mark Stoddard, and asked him if he had received the checks, and he said he had not received
the checks. Plaintiff called Chief Commissioner Mark Stoddard, a second time on Monday
October 30, 2017, and Mr. Stoddard, again stated he had not received the checks. Plaintiff now
deceased husband went to the Roseville, Michigan Post office, and he asked for them to take a
written Report/ Complaint from him, and he was informed it was not possible. On October 31,
2017, Plaintiff's now deceased husband, went to the Roseville Police Department and filed a
Police Report and he was given a complaint number of 170031301- Offense Suspicious
Circumstances. Plaintiff called the Roseville post office for the matter to be investigated,
because it involved mail tampering, and wire fraud, and illegal filing fees were charged on two
cases that were filed in the Michigan Court of Appeals. Plaintiff Brenda White, made calls to
the Michigan Court of Appeals on October 31, 2017, and November 1, 2017, and plaintiff spoke
to a clerk named Kate, and she continued to say the checks had not been received. On
November 1, 2017, plaintiff called chase bank to put a stop payment on both checks. On
November 2, 2017, Plaintiff called Mark Stoddard, again and he stated the checks had not been
received. Plaintiff then informed Chief Commissioner Mark Stoddard, that a stop payment was
placed on the old checks, and Mr. Stoddard, was also informed that two new checks were
taken to the Michigan Court of Appeals Office in Troy Michigan. On November 6, 2017, a
special agent from the Office of Inspector General named Aaron Bowen, called to do a further
investigation in regards to plaintiff's police report and Post Office verbal Complaint taken by
the Post Office that was on file. Agent Bowen also left plaintiff a contact number. On
November 6, 2017, Plaintiff called Chief Commissioner Mark Stoddard, to inform him that
Agent Aaron Bowen had called to follow up on the complaint that was filed on October 31,
2017. On November 8, 2017, Plaintiff Brenda White, received two suspicious letters from Chief
Commissioner Mark Stoddard, with the original checks attached to the letters. All updated
information and documents was given to the Roseville Police Department and added to the
original police report.
This criminal act done by Chief Commissioner Mark Stoddard, from the Michigan Court of
Appeals, was done to impede justice, in plaintiff's cases named: Brenda White v Southeast
Michigan Surgical Hospital and Dr. Gary Docks; Brenda Ford White v O.L. Matthews, M.D.,
Wook Kim, M.D., Joram Mogaka, M.D., Harper University Hospital, and St. John's Hospital And
Medical Center, INC and to dismiss plaintiff's cases for not paying an illegal filing fee, by the
due date of November 8, 2017.

Michigan Supreme Court Chief Clerk Larry S. Royster, did the same criminal act as Chief
Commissioner Mark Stoddard, did, tampering with mail involving the U.S. Postal Service.
Plaintiff mailed an illegal filing fee check on October 29,2018, to the Michigan Supreme Court

10.

to the correct address, plaintiff had a post office receipt with an expected delivery date of
Wednesday October 31, 2018. The order dated October 11, 2018, stated that the case would
be Administratively Dismissed if the filing fee was not paid within 28, days. The name of the
case is: Brenda R. White v EDS Care Management LLC and Travelers Indemnity Company, SC:
158078. On Tuesday November 6, 2018, Plaintiff contacted the Michigan Supreme Court Clerks
Office, and she talked to Chief Clerk Larry S. Royster, and he said in an audio recording that
they did not receive the check and directed plaintiff to send anew check and certify the mail,
and if he receive the original check he would send it back. So, Plaintiff and her husband decided
that it was necessary to take an almost two hour drive to Lansing, Michigan, to hand
deliver another check, because they did not trust Larry S. Royster, and the illegal filing fee was
due on November 8, 2018. On November 7, 2018, plaintiff called the Michigan Supreme Court
at 11:07 A.M. and she talked to the administrative assistant Tess Haadsma, and Tess stated in
an audio recording that the check had not been received. Plaintiff told her that she would have
to come up with the check, because plaintiff knew the court had the check. So, On November 7,
2018, at 12:16 P.M. plaintiff called the Michigan Supreme Court back to ask the court again
about the mail, to determine if she would have to put a stop payment on the original check,
and Chief Court Clerk Larry S. Royster, said in an audio recording he had received the check in
the mail. He asked plaintiff, if she wanted him to tear up the original check, or if she wanted
him to mail the original check back to her. So, Plaintiff directed him to send the original check
back to her in the mail, and he did. This is a criminal act done by Michigan Supreme Court
Clark Larry S. Royster, and it was done to impede Justice, and to dismiss plaintiff's case for not
paying illegal filing fees by the due date of November 8, 2018, in the Brenda R. White v EDS
Care Management LLC, and Travelers Indemnity Company case.

On March 23, 2018, plaintiff filed a Motion for relief from Judgment, In front of Judge Edward
Servitto Jr. The hearing was scheduled for April 2, 2018. Plaintiff Brenda White, showed up for
the hearing, and Judge Edward Servitto Jr. dismissed the motion hearing. On April 4, 2018,
plaintiff Brenda White, was sent a copy of the order from Judge Edward Servitto, Jr. without a
clerk stamp on the order, just his signature.

On November 15, 2017, the Michigan Court of Appeals issued a order that states: The Court
orders that the application for leave to appeal is Denied for lack of merit in the grounds
presented. This is a statement that the Michigan Court of Appeals has used over and over and
over again to delay, deny, defend, to perpetuate injustice, while allowing defendants attorneys
to threaten plaintiff Brenda White, with sanctions to cover up crimes, while charging plaintiff

11.

•4

*>

Brenda White, illegal filing fees, to chase her out of court. The Michigan Court of Appeals has
also waived the filing fees in this case under Michigan Court of Appeals: 311908, 311273,
312159, 329594,329929,

On September 12, 2018, Michigan Supreme Court mailed two orders to Plaintiff Brenda
White, for her Cases named Brenda White v Southeast Michigan Surgical Hospital and Dr. Gary
Docks, and Brenda Ford White v O.L. Matthews M.D., Wook Kim, M.D., Joram Mogaka, M.D.,
Harper University Hospital, and St. John's Hospital And Medical Center, INC., The Michigan
Supreme Court has called plaintiff Brenda White, a vexatious litigator after plaintiff
foundUncontested/ Default/ Settled on the trial court dockets in both cases in the Macomb
County Circuit Court docket 2012-002017-NH, and the Wayne County Third Circuit Court
docket 13-013472-NH. The attorney Robert G. Kamenec, who is in both cases filed a motion to
dismiss in both cases, to cover up crimes in both cases, and to run a pro se litigant out of court.
Attorney Linda Garbarino, Filed a motion to dismiss for Harper University Hospital to cover up
a crime, and to run a pro se litigant out of court. Plaintiff Brenda White, has too much evidence
to be a vexatious litigator.

After Plaintiff Brenda White, noticed for two months, that Michigan Supreme Court September
12, 2018, orders were not on the trial court public register of action Plaintiff called Chief Court
Clerk Larry S. Royster, about the orders, and Larry S. Royster stated in an audio recording on
Tuesday November 20, 2018, that he sent the orders from both cases to the trial courts. The
Michigan Supreme Court September 12, 2018, order has not been sent to the Macomb County
Circuit Court and is not on the register of action, and this has been confirmed by a clerk named
Erica, in an audio recording on Wednesday November 21, 2018, in the Brenda White v
Southeast Michigan Surgical Hospital and Dr. Gary Docks, LC: 2012-002017-NH. On November
21, 2018, plaintiff called Attorney Richard M. Lynch, Wayne County Third Circuit Court
Corporate Counsel, to ask him about a September 12, 2018, Michigan Supreme Court Order
that was noton the public register of action in the Brenda Ford White v O.L Matthews M.D. et
al, case, and Mr. Lynch confirmed in an audio recording on November 21, 2018, that the order
was not on the public register of action. Richard M. Lynch, later made an entry on the register
of action on 11/21/2018 of a Higher Court Order/ Decision Received by Circuit Court without a
new order attached on the public register of action no.l3-013472-NH. This is clearly more
deceptive practice that presents more fraud on the court.

On October 29, 2018, Plaintiff discovered that the Transcript from a motion hearing in
plaintiff's case named: Brenda white v Southeast Michigan Surgical Hospital and Dr. Gary Docks.

12.

held on Monday July 17, 2017, in front of Judge Edward Servitto, in Macomb County Circuit
Court was fraud. Court Reporter Brion David Coury had at the heading of his transcript, State of
Michigan In The Third Circuit Court For The County Of Wayne. The heading Should have stated:
In The Circuit Court For The County Of Macomb. Court Reporter Brion David Coury also did a
certificate of ordering transcript, using a Third Circuit Court document with an address of
Civil/Family division with a Third Circuit Court telephone number of 313-224-0409. Judge
Edward Servitto Jr. did not enter an order July 17, 2018. A letter with exhibits regarding this
matter was hand delivered to the Michigan Court of Appeals on November 1, 2018, and a
stamped copy was given to plaintiff, a copy of the documents was emailed to Brion David
Coury. The Michigan Court of Appeals has not responded to plaintiff as of yet in regards to the
fraud Transcript with exhibits. A copy was given to Fran at the Troy Michigan Office, and she
stated in an audio recording dated November 2, 2018, that she scanned and sent copies by
email on November 1, 2018, to Chief Commissioner Mark Stoddard, Chief Clerk Jerome Zimmer
Chief Clerk Jerome Zimmer's Secretary, and the clerk at the Troy Michigan office. Fran also
stated she has the physical copy on her desk.

On January 23, 2018, and January 24, 2018, WDIV-TV Local 4 news Reporter Jason Colthorp,
aired a fraud news story on the news, involving former Court Clerk/ Register of Deeds Karen
Spranger, Chief Clerk Lisa Emerson, General Counsel John Schapka, and Macomb County Board
of Commissioners, where Jason made a statement that the incident began with a letter from
Spranger in a response to an inquiry from a woman named Brenda White regarding her 2012
court case, and Jason stated that Employee says Macomb County Clerk Karen Spranger
pressured her to illegally alter a record. In an incident report, Emerson said she was forced to
lock herself in her office out of fear.

News Reporter Jason Colthorp, and WDIV-TV Local 4 news covered up and Misrepresented
facts in Brenda White cases named: Brenda White v Southeast Michigan Surgical Hospital and
Dr. Gary Docks; Brenda R. White v EDS Care Management LLC and Travelers Indemnity
Company. Jason covered up plaintiffs case named Brenda Ford White v O.L. Matthews M.D. et
al, Jason Colthorp also covered the Joseph White v Detroit East Community Mental Health et
al, case, and Local 4 news covered up plaintiff Joseph White and Tiffany Wilson's case on
several occasions in 2016, while airing a story on Detroit East Community Mental Health and
Gateway. On January 24, 2018, WDIV-TV Local 4 news aired another Fraud news story where
two Newscasters, Sandra Ali and Jason Carr, stated in a morning news cast that Macomb
County Clerk Karen Spranger, was facing new allegations of harassing employees. This time
from an employee who says she threatened to fire her for not changing a court document.
This involves a Workers Comp case back from 2012. Spranger, investigated the case on her

13.

own and said former county clerk committed fraud and fraudulently did not enter a decision.
The employee said she was asked to falsify a court record, Spranger, has yet to respond or
comment. WDIV-TV Local 4 news was referring to Brenda White's court case in Macomb
County Circuit Court.

Plaintiff and her now deceased husband Joseph White, made numerous telephone calls to
WDIV-TV Detroit news reporter Jason Colthorp, and WDIV news station asking them to correct
a news story that aired on January 23, 2018 and January 24, 2018. To no avail.

On August 23, 2018, Plaintiff Brenda White, and her now deceased husband Joseph White,
gave a copy of a complainants statement with exhibits in regards to a fraud news story
involving Jason Colthorp, Karen Spranger, Lisa Emerson, general counsel for Macomb County
Circuit Court John Schapka, Macomb County Board of Commissioners, and WDIV local 4 news to
Kathy Smith, former Macomb County Circuit Court Clerk/ Register of Deeds, and she turned the
complainants statements with exhibits over to Macomb County Circuit Court Corporate
Counsel, John Schapka. Also, on August 23, 2018, Plaintiff Brenda White's husband, gave a
copy of the complainants statement with exhibits to Deputy Miller, at the Macomb County
Sheriff's Office, and deputy Miller gave Brenda White's husband Joseph White, a complaint # of
63058-18. Deputy Miller, stated he was going to put the complainants statement with exhibits
in Detective Jeff Pintal's box. On October 1, 2018, Plaintiff Brenda White's husband, called
Detective Jeff Pintal, and he left a voice message for Detective Jeff Pintal, to return his call. On
October 2, 2018, Detective Jeff Pintal, returned plaintiff's husbands call. Detective Pintal,
stated he had not seen the complainants statement with exhibits, and he could not find the
complainants statement with exhibits. Plaintiffs husband asked Detective Pintal, if he wanted
him to bring him another copy of the complainants statement with exhibits, and Detective
Pintal, said no, because he would have to locate the original complainants statement with
exhibits. On Friday October 26, 2018, Detective Pintal called plaintiffs husband to tell him he
had found the complaint. He informed Plaintiff and her husband that they could file an
addendum to their statement. Plaintiff Brenda White, and her now deceased husband Joseph
White, met with a Macomb County Sheriff by the name of Mark Tillman, on Saturday October
26, 2018, at the Macomb County Sheriffs office. Sheriff Tillman gave plaintiff Brenda White,
and her husband, a new complaint number of 81302-18. A police report was done on October
27, 2018, with a complaint # of 2018-00081302. On November 15, 2018, Plaintiff Brenda White
and her husband Joseph White, met with Detective Jeff Pintal, from Macomb County Sheriff's
Office to turn over more documents to him regarding their cases. Detective Jeff Pintal, told
plaintiff Brenda White, and her husband Joseph White, he was going to turn all of their
documents over to Macomb County Prosecutor Eric Smith.

14.

On August 31, 2018, Plaintiff Brenda White, and her husband now deceased husband Joseph
White, sent a copy of the complainants statements to Richard M. Lynch General Counsel of the
Wayne County Third Circuit Court. On September 7, 2018, Mr. Lynch sent a letter addressed to
Plaintiff Brenda White and husband Joseph White, stating he received our mailing that
included Complainants Statements dated August 23, 2018. After reading your documents, that
I must again advise you that the issues presented are outside the scope of my office and of the
Third Judicial Circuit of Michigan. Consequently, I take no action on this matter and consider it
closed. On September 7, 2018, attorney Richard M. Lynch stated in an audio recording that
the documents given to him address issues in Macomb County Circuit Court. Plaintiff has a
copy of the audio recording dated September 7, 2018, and attorney Richard Lynch is breaking
the law.

On September 25, 2018, Plaintiff's now deceased husband Joseph White, received a
threatening letter from WDIV/ Jason Colthorp attorneys BERNARD!, RONAYNE & GLUSAC
regarding a cease and desist. Joseph J. Bernardi stated in his letter dated September 25, 2018, If
you fail to cease and desist from making telephone calls to, leaving voicemail messages for and/
or sending email messages to WDIV and its employees, or if you have contact with WDIV and its
employees, I will be forced to take appropriate legal action against you and will seek all
available damages and remedies. On October 1, 2018, Plaintiff Brenda White, and her husband
Joseph White, sent a letter to attorney Joseph J. Bernardi requesting a correction in a news
story that aired on WDIV on January 23, 2018 and January 24, 2018, a copy of attorney Joseph
J. Bernardi's threatening cease and desist letter, and a copy of Plaintiff Brenda White and her
husband Joseph White's letter addressed to Joseph J. Bernardi was mailed to Detective Pintal
on October 1, 2018. In a telephone contact on October 2, 2018, Detective Pintal, from Macomb
County Sheriffs Office, stated that WDIV attorneys could not send a threatening letter
regarding a cease and desist without an order from a judge. On October 1, 2018 Plaintiff
Brenda White, and Joseph White, sent attorney Joseph J. Bernardi, from Bernardi, Ronayne, &
Glusac, a Copy of a complainants statement with exhibits, and on October 29, 2018 attorney
Joseph Bernardi, responded in a letter stating: Dear Mr. and Mrs. White: your letter of October
1, 2018 claims that you filed a Complainants Statement with the Macomb County Circuit Court
Clerk and the Macomb County Sherriff s office. If, and when we receive any inquires from a
governmental agency we will respond accordingly. Absent any governmental inquiries, there is
nothing further to add. Sincerely, Joseph J. Bernardi.

15.

On August 14, 2019, a request for Investigation was filed by plaintiff Brenda White and Joseph
White, at the Michigan Attorney Grievance Commission on attorney Joseph J. Bernardi, the
attorney who represents WDIV/TV Local 4 News, in regards to a news story that aired on
January 23, 2018 and January 24, 2018 where news reporter Jason Colthorp did a fraud news
story involving former Macomb County Clerk/ Register of Deeds Karen Spranger, Chief Clerk
Lisa Emerson. Macomb County General Counsel John Schapka, and Macomb County Board of
Commissioners, Plaintiff Brenda White, and Joseph White.

On October 8,2019, the Michigan Attorney Grievance Commission responded in a letter that
states: personal and Confidential Joseph and Brenda White AGC File No. 19-2255, Dear Mr. and
Mrs. White: This office received your Request for Investigation, however the allegations in your
complaint are insufficient to warrant review by the Commission. Accordingly, after careful
review by the staff, this matter is being closed under the authority of the Grievance
Administrator pursuant to Michigan Court Rule 9.112(C)(l)(a.) Your request for Investigation
has been thoroughly reviewed. The facts as you have stated in your Request for Investigation
do not constitute professional misconduct. We regret that we can be of no further assistant to
you. Joseph John Bernardi has been provided with a copy of your Request for Investigation. If
my staff or I can be of service to you in the future, please do not hesitate to contact us again.
Very truly yours Cynthia C. Bullington, Assistant Deputy Administrator.

On October 4, 2018, Plaintiff Brenda White's now deceased husband Joseph White, contacted
Fox 2 News in Southfield Michigan, in regards to a news story by M.L. Elrick, on Karen Spranger,
Macomb County Clerk Candidate Lisa Sinclair, and Candidate Fred Miller. Fox 2 news and M.L.
Elrick, stated that they did not find any problems with Fred Miller public record check.
Plaintiff's husband Joseph White, called Fox 2 News and told them that they failed to mention
about Fred Miller and Karen Spranger's collusion with former Court Clerk/Register of Deeds
Carmella Sabaugh, in an election scheme, and Carmella Sabaugh, not granting a clear default in
the Brenda White v Southeast Michigan Surgical Hospital and Dr. Gary Docks, and the
concealment of the Brenda R. White v EDS Care Management LLC and Travelers Indemnity
Company case. Plaintiffs husband Joseph White, also mentioned that Jason Colthorp and
WDIV did a fraud news story on January 23, 2018, and January 24, 2018, involving Former
Macomb County Clerk/ Register of Deeds Karen Spranger, Chief Clerk Lisa Emerson, Macomb
County Board of Commissioners, and general counsel John Schapka. Ken Martinek, from Fox 2
News, sent plaintiff's husband Joseph White, an email in regards to plaintiff's husband sending
the news director Kevin Roseborough, a copy of plaintiff Brenda White, and her husband
Joseph White, Complainants Statement documents in regards to WDIV and Jason Colthorp
Fraud news cast.

16.

Former Macomb County Clerk/ Register of Deeds Carmella Sabaugh, Judge Edward Servitto Jr.
and Defendants Southeast Michigan Surgical Hospital attorneys, Thomas R. Shimmel, Christina
A. Ginter, from the Kitch, Drutchas, Wagner, Valitutti, & Sherbrook, P.C. Firm, and defendant
Dr. Gary Docks, attorney Robert G. Kamenec, and Dr. Gary Docks, former attorney Kenneth M.
Mattson, from the Plunkett Cooney Law Firm, set up a default, to cover up intentional
malpractice that was done by Dr. Gary Docks, with malice, to cover up a State of Michigan
Workers Compensation case, involving EDS Care Management LLC and Travelers Indemnity
Company's involvement in corruption. This criminal act has continued for nine years and one
month.

On December 3, 2018, plaintiff filed her third petition for writ of certiorari in the United States
Supreme Court in the Brenda White v Southeast Michigan Surgical Hospital and Dr. Gary Docks
Case, and the petition was placed on the docket on December 14, 2018, as no. 18-7055.
Plaintiff's petition was placed on the United States Supreme Court Website in a PDF format. On
February 19, 2019, plaintiffs petition was denied by the United States Supreme Court.

On March 8, 2019, plaintiff filed a motion for relief from judgment with exhibits, a request for a
hearing on a motion, a notice of a hearing, and a proof of service, in the Macomb County
Circuit Court. The motion hearing was scheduled for March 25, 2019. A fee waiver request
form for approval was sent to Judge Edward Servitto, Jr. and he could not enter the order. The
form was sent back to plaintiff without a decision. Judge Edward Servitto Jr. could not grant or
deny plaintiffs fee waiver request. On March 15, 2019, plaintiff paid $20.00.

On March 20, 2019, attorney Robert G. Kamenec, filed a response and Joinder in response to
plaintiffs renewed motion for relief from Judgment. The Register of action states that
attorney Robert G. Kamenec filed a joinder, and that is what he has on his response, and no
other defendants attorney filed a response to plaintiff Brenda White, motion for relief from
Judgment. Attorney Kamenec, also stated in his response that he filed a response to plaintiffs
renewed motion for relief from Judgment, and plaintiff Brenda White did not file a renewed
motion for relief from Judgment, Plaintiff Brenda White filed a motion for relief from Judgment.
Mr. Kamenec filed his response twelve days after plaintiffs seven day motion for relief from
Judgment was filed.

17.

l

*

1

<
1

F

On March 25, 2019, at plaintiff's Motion hearing, Judge Edward Servitto Jr. and attorney
Robert G. Kamenec made false statements under oath, and presented to the public like
plaintiff had broke the law to cover up their participation in fraud on the courts. Judge Edward
Servitto made statements that plaintiff owes money that she has not paid. Mr. Kamenec stated
that Judge Edward Servitto Jr. awarded costs. Judge Edward Servitto Jr. stated the court
provided sanctions last time. Judge Edward Servitto, Jr. stated under oath Ma' am, I'm not
accepting your pleading. Your pleading has not been accepted. You' re not going to have a
hearing.

Mr. Shimmel stated under oath at the Motion hearing that he is on behalf of Southeast, and
he did not even file a response. Robert G. Kamenec admitted that Judge Edward Servitto Jr.
previous orders had not been entered. Robert G. Kamenec stated under oath the following
statement: I prepared one here and we had some difficulty, as you know, getting orders
entered.

On March 25, 2019, Judge Edward Servitto Jr. had his clerk stamp a fraud order summited by
Robert G. Kamenec, during the motion hearing denying plaintiff Brenda White's motion for
relief from Judgment that contain threats of sanctions and false statements that read as
follows: Upon plaintiff's Motion for Relief from Judgment, Defendants having filed responses,
the court having heard oral argument on March 25, 2019, and the court being fully apprised in
the merits: It is Hereby Ordered that plaintiff's Motion is Denied for the reasons stated on the
record. It is further Ordered that plaintiff shall be precluded from filing in the Macomb County
Circuit Court any more motions or any other lawsuits related to this matter without first
providing the chief Judge of this Court a paper copy of the motion, brief and all exhibits and /or
Complaint and obtaining leave from the Chief Judge of this Court to file a motion in this case or
a complaint in a new case. It is Further Ordered that if plaintiff violates this order, she shall be
sanctioned for damages including attorney fees and costs and the motion and/ or Complaint
will be dismissed. It Is So Ordered.

Attorney Robert G. Kamenec ask Judge Edward Servitto Jr. under oath if he could make a
suggestion. Judge Edward Servitto Jr. said what is the suggestion ? Attorney Robert G. Kamenec
stated there's a similar case pending in Wayne County where the judge entered an order just
last week indicating that if there's going to be anymore filings, they have to be cleared with the
chief judge so we don't keep going through this. I have a copy of that order. Judge Edward
Servitto Jr. responded under oath that's a good idea. Attorney Robert G. Kamenec stated under
oath could I tender this to the court, your Honor? Judge Edward Servitto Jr. responded under

18.

oath is it a prepared order ? Attorney Robert G. Kamenec responded under oath that's the one
from Wayne County . May I tender this to the court ? Judge Edward Servitto Jr. under oath
stated the court will sign the order.

Attorney Robert G. Kamenec and Judge Edward Servitto Jr. covered up that the order they
were talking about under oath was the order from plaintiff Brenda White's other case filed in
the Wayne County Third Circuit Court that arises from the cortisone/ sepsis murder cover-up
death of Plaintiff Brenda White's mother Bettie Ruth Ford. The name of the case is Brenda
Ford White v O.L. Matthews M. D. et al. Judge Leslie Kim Smith is the judge who entered that
fraud order. Attorney Robert G. Kamenec is the defendants attorney in that case also

The Threats of sanctions for damages including attorney fees and costs is against the law and
total abuse of authority, and a threat to impede Justice with attempts to run a pro se litigant
out of court.

On April 1, 2019, plaintiff Brenda White, hand delivered a second letter with exhibits, to Chief
Judge James M. Biernat Jr. in regards to Judge Edward Servitto's fraud order and register of
action fraud. Plaintiff asked the chief Judge to turn plaintiff's letter over to the Michigan
Attorney General Dana Nessel, and other proper authorities, because this is a fraud case.
Judge James M. Biernat Jr. did not respond. Letter with attachments is in plaintiff's files in
Macomb County Circuit Court.

On April 11, 2019, plaintiff, received a copy of Judge Edward Servitto's order from the clerks
Office. The clerk certified the order, and the clerk from Macomb County Circuit Court entered
the following statement on the certified register of action: 04/11/19 - Order vacating Part of
March 25, 2019 order SGN/EAS. Plaintiff Brenda White, later received a copy of that order
dated April 11, 2019, in the mail vacating part of March 25, 2019, order signed by Edward
Servitto Jr. The order states that the court vacates all sanctions for damages including attorney
fees and cost, and the order also vacates first providing the chief judge a paper copy of the
motions, briefs, and all exhibits and/or complaints and obtaining leave from the chief Judge of
this court to file a motion in this case or a complaint in a new case.

On April 15, 2019, plaintiff Brenda White, filed an Application for leave to Appeal in the
Michigan Court of Appeals. On May 30, 2019, the Michigan Court of Appeals, illegally denied

19.

plaintiffs fee waiver request even though plaintiffs Income did not show the ability to pay.

On July 31, 2019 the Michigan Court of Appeals once again issued another fraud order denying
plaintiff s application for leave to appeal for lack of merit in the ground presented. The
Michigan Court of Appeals on its own motion stated pursuant to MCR 7. 216(C) (1), the court
assesses sanctions on the basis that plaintiffs appeal is frivolous and Vexatious. Plaintiff
appellant Brenda White is ordered to pay sanctions of $500.00. The Michigan Court of Appeals
has no supporting documentation or proof to show that plaintiffs appeal is frivolous and
vexatious. The sanction laws are used to run plaintiff Brenda White out of court.

This clearly shows fraud on the court. Fraud upon the court is fraud committed by the officers
of the court. The officers of the court are attorneys, judges, and judicial employees, including
the staff of the clerk of the court. Fraud upon the court is types of action designed to interfere
with the proper functioning and decision-making of the court. The attorneys, defendants, and
the judicial machinery itself, conspired to pervert the course of justice.

On September 6, 2019, plaintiff Brenda White, filed an application for leave to appeal in the
Michigan Supreme Court, and on January 2, 2020, the Michigan Supreme Court issued another
fraud order stating on order of the Court, the application for leave to appeal the July 31, 2019,
order of the Court of Appeals is considered and it is Denied, because we are not persuaded
that the questions should be reviewed by this court.

On August 29, 2019 former Macomb County Clerk/ Register of Deeds Karen Spranger, came to
plaintiff Brenda White's home for a second time. Karen talked for 5 % hours. She discussed her
intentions to file a complaint with Secretary of State Jocelyn Benson, to report election
tampering, political conspiracy, Macomb County Circuit Court mismanagement, and
corruption in the Brenda White v Southeast Michigan Surgical Hospital and Dr. Gary Docks Case;
Brenda R. White v EDS Care Management LLC and Travelers Indemnity Company Case, and
fraud upon the court. Karen stated she was wrongfully terminated for trying to clean up
corruption in Macomb Court, she also stated she was attacked by her peers and the media for
attempting to clean up corruption and for her replacing former Court Clerk Carmella Saubaugh.
She stated she hopes to get her Job back as Macomb County Clerk/ Register of Deeds. She also
stated she was going to send a letter to Attorney General Dana Nessel.

20.

On December 30, 2019, Brenda White, left a message at the news desk of the Macomb Daily
Newspaper in regards to filing a complaint on Jeff Payne the editor of the Macomb Daily and
Jameson Cook, a reporter from the Macomb Daily. On January 2, 2020 Jeff Payne, called and
Spoke to Brenda and Joseph White. Brenda and Joseph mentioned all cases, but the Brenda
White v Southeast Michigan Surgical Hospital and Dr. Gary Docks case and the Brenda R. White
v EDS Care Management LLC and travelers Indemnity Company case was discussed more at
length. Brenda White, asked Jeff Payne, why did reporter Jameson cook, use an audio recorded
conversation between former Macomb County Clerk/ Register of Deeds Karen Spranger, and
Joseph White, and make a fraud statement in the Macomb Daily Newspaper on Sunday July 8,
2018, that Brenda White, had a case from several year ago, and he did not mention that Joseph
White had a case. Jeff Payne, acted like he did not know that the cases went to the United
States Supreme Court. Jeff Payne, stated give him two weeks.
On February 5, 2019, Brenda White and Joseph White, had a telephone conversation with
Macomb Daily News reporter Jameson Cook, and all of Brenda and Joseph white cases were
mentioned, but Jameson Cook discussed the Brenda White v Southeast Michigan Surgical
Hospital and Dr. Gary Docks ; Brenda White v EDS Care Management LLC and Travelers
Indemnity company cases more at length. Jameson Cook used a fraud Michigan Court of
Appeals per curium opinion from the Brenda White v Southeast Michigan Surgical hospital and
Dr. Gary Docks case and litigated with Brenda White, like he was an attorney instead of a
reporter. Brenda White, asked Jameson Cook, why did he use an audio recording between
Joseph White andiKaren Spranger, and print in the Macomb Daily Newspaper on Sunday July 8,
2018, that Brenda White, had a case from several years ago when he knew that Brenda White,
was still in the'court. He responded the statement didn't mean that. Jameson also stated he did
not do Brenda White, story he just mentioned the case, and he regret mentioning the case.
Jameson stated that he did not know anything about Brenda and Joseph White cases. To add
insult to injury the Macomb Daily Newspaper has been intentionally interfering with the
delivery of the newspaper. The carrier has been throwing the paper in the snow, in the street,
under cars, in puddles of melting snow, and has stopped putting the address on the paper. The
Carrier has stopped delivering the paper at the door. This intentional problem has been
reported over and over and over again to the Macomb Daily Circulation Desk, reporter Jameson
Cook, and editor Jeff Payne. All to no avail. Brenda White canceled the Macomb Daily News
Paper subscription and requested a refund. The customer service department refused to give
Brenda White a refund.

Brenda and Joseph White sent a complaint to WJBK fox 2 news on 9/26 2020, regarding their
cases. WJBK Fox 2 news did not respond. The complaint was added to their Roseville Police File
200009387, and their Macomb County sheriff's office case report file no. 2019-00077983

21.

On March 19, 2020 plaintiff Brenda White filed a forth petition for writ of certiorari in the
United States Supreme Court, and the petition was placed on the docket on March 27, 2020 as
No. 19-8114. The court entered a denied order on June 1, 2020

On June 18, 2020, plaintiff Brenda White filed a motion and a request for hearing on a motion
in the Macomb County Circuit Court. On June 25, 2020, Judge Edward Servitto, Jr. denied the
motion in a signed order intentionally calling plaintiff Brenda White a defendant. On June 30,
2020, Judge Edward Servitto, Jr. amended his order to change the word defendant to plaintiff
after plaintiff Brenda White, contacted the clerks office and talked to Fred Miller Former
Macomb County Clerk/ Register of Deeds.

On July 24, 2020, Brenda White, filed a delayed application for leave to appeal in the Michigan
Court of Appeals, docket no. 354313, this case has been in the court nine years and one month.
Eleven months short of a decade. The Michigan Court of Appeals sent the application back two
times until Plaintiff paid a total of 1,500.00 for illegal sanctions for all three of plaintiffs cases.
The Court was hoping that plaintiff Brenda White did not come back. After the court illegally
took the money, they used husbands veteran's exempt disability income to charge a filing fee of
$375.00 for the above case named Brenda White v Southeast Michigan Surgical Hospital and
Dr. Gary Docks, and $375.00 filing fee for the case named Brenda Ford White vO.L Matthews
M.D. et al docket no.354308, a total of $750.00 due at the same time. Brenda White and her
now deceased husband was abused and retaliated against by the judicial system and it shows
extreme prejudice. Plaintiff Brenda White case named Brenda R. White v EDS Care
Management LLC and Travelers Indemnity Company, the Appeals Commission illegal took
$2,500.00 from plaintiff Brenda White at the same time and could not go to trial. Documents
added to Brenda and Joseph White Roseville Police file no. 200009387

On October 28, 2020, The Michigan Court of Appeals entered a fraud order regarding another
illegal sanction of $500.00 denying the delayed application for leave to appeal in the Brenda
White v Southeast Michigan Surgical Hospital and Dr. Gary Docks case, docket no.354313.

On December 2, 2020, plaintiff Brenda White filed an Application for leave to Appeal in the
Michigan Supreme Court docket no.162312, On March 30, 2021, the Michigan Supreme Court
denied the application stating the application is Denied because we are not persuaded that
the question presented should be reviewed by this court.
22.

To talk about a pattern of corruption plaintiff Brenda White and her now deceased husband
Joseph White, who had a sudden departure died February 7, 2021. Joseph suffered the same
type of abuse from the Judicial system and the same attorneys that his wife Brenda White did.
Joseph White was a Master level Social Worker (LLMSW) and a Vietnam Veteran who had a
duty to report corruption, he reported to the News, the Governor of Michigan, the Michigan
Attorney General, the police, and others. Joseph was a plaintiff in the Detroit East Community
Mental Health, Marilyn Snowden, Shirley Calhoun, Doris Sterrett, and Gateway Community
Health Provider case. Joseph White continued his case as the plaintiff all the way until his time
of death. Joseph filed his case on September 12, 2011 in the Wayne County Third Circuit Court,
and he was taken advantage of, ignored, retaliated against, called a vexatious litigator, charged
illegal filing fees and ran through the courts for almost a decade. Two of the defendants died
and now Joseph white the plaintiff is deceased. Joseph White, had also filed a petition for Writ
of Certiorari four times in the United States Supreme Court, his last petition was filed on April
17, 2020, and placed on the United States Supreme Court docket on May 5, 2020 as No. 198398. Joseph had filed an application for leave to appeal in the Michigan Court of Appeals as
docket no. 355827. Joseph wife Brenda White reported to the court that Joseph had passed,
the Court sent a letter stating if you desire to proceed with the appeal you must file a motion to
substitute the estate of Joseph White as the appellant. Failure to file the motion will result in
the appeal being dismissed as there is no longer an aggrieved party to go forward. MCR
2.202(A) and MCR 7.203(A). The estate has been open in Macomb County Probate Court case,
file no. 2021-237107-DE, Brenda White, named personal representative of the estate. The
motion to substitute the estate has been filed by Brenda White in the Michigan Court of
Appeals. All of this could have been avoided if the case was handled correctly while Joseph was
alive. Joseph was being ran through the courts and charged illegal sanctions in a case with a
cause of action.

The Warren Police Department corrected a police report on September 14, 2020, regarding
report no.140020691, FOIA # 1515- 20.pdf. The three page report states that Brenda R. White v
EDS Care Management LLC and Travelers Indemnity Company is the same related case to
Brenda White v Southeast Michigan Surgical Hospital and Dr. Gary Docks. A corrected
statement was made that states: The Doctors name is Dr. Gary Docks, not Dr. Wocks. A
correction was also made in regards to the year the complaint was filed. ( exhibit A attached).

Michelle M. Brya, Division Chief from Licensing and Regulation Division sent Brenda and Joseph
White an email on October 29, 2020, regarding Citizen inquiry # 2020-0294519-A. The letter
states that Attorney General Dana Nessel has asked her to reply to our request That the
Attorney General intervene in several cases that we are a party to in various Michigan Courts
23.

and tribunals. The law does not permit the Attorney General to provide legal services to private
individuals or intervene on your behalf in specific cases. Accordingly, you may wish to contact a
private attorney for advice regarding legal remedies available to you. (exhibit B attached).

Michigan Governor Gretchen Whitmer has responded to numerous emails that plaintiff Brenda
White has sent to her regarding case named Brenda R. White v EDS Care Management LLC and
Travelers Indemnity Company; Brenda White v Southeast Michigan Surgical Hospital and Dr.
Gary Docks and other cases. Governor Gretchen sends an automatic reply that she has
received your email. Her office will work quickly to reply to your concerns, however please
note that some issues take longer than others to resolve, (exhibit C attached)

Brenda and Joseph White sent a second complaint to the attorney Genera Dana Nessel on June
11, 2020, The attorney General's Office had informed Brenda and Joseph White that attorney
Richard L. Cunningham was the attorney handling the complaint. On March 9, 2021, Richard L.
Cunningham, Assistant Attorney General, from the Criminal Trials and Appeals sent a letter by
email to Brenda White after Brenda White informed him that Joseph White was deceased. The
second paragraph states: you have asked the Attorney General to represent you/or intervene
on your behalf in several Civil legal claims and administrative proceedings. You have also
requested that we initiate criminal proceedings against several judges, attorneys, adverse
parties, public officials and others who refuse to grant you the relief you request. We have
reviewed your assertions several different times, but it is clear that there is no valid basis for us
to act. Forth and last paragraph states: I wish to make it clear. We have closed the files on any
and all complaints you have filed and will not be taking any action. We are not conducting any
type of investigation on the matters you raised. We consider the matters at an end. Sincerely,
Richard L. Cunningham, (exhibit D attached).

Whenever any officer of the court commits fraud during a proceeding in the court, he/she is
engaged in " fraud upon the court. "In Bulloch v United States, 763 F. 2d 1115,1121 (10, Cir.
1985), the court stated "Fraud Upon the court" is fraud directed to the Judicial machinery itself
and is not fraud between the parties or fraudulent documents, false statements or perjury. ...It
is where the court or a member is corrupted or influenced or influence is attempted or where
the judge has not performed his judicial function —thus where the impartial functions of the
court has been directly corrupted." "Fraud upon the court" has been defined by the 7th Circuit
Court of Appeals to "embrace that species of fraud which does, or attempts to defile the court
itself, or is a fraud perpetrated by officers of the court so that the judicial machinery can not
24.

Pj

k

t

perform in the usual manner its impartial task of adjudging cases that are presented for
adjudication. " Kenner V C.I.R., 387 F.3d 689 (1968); 7 Moore's Federal Practice, 2d ed., p. 512H
60.23. The 7th Circuit further stated " a decision produced by fraud upon the court is not in
essence a decision at all, and never becomes final. "Fraud upon the court" makes void the
orders and judgments of the court. It is also clear and well-settled Illinois law that any attempt
to commit "Fraud upon the court" vitiates the entire proceeding. The people of the state of
Illinois v Fred E. Sterling, 357 III. 354; 192N.E. 229 (1934) ("The maxim that fraud vitiates every
transactions into which it enters applies to judgments as well as to contracts and other
transactions."); Allen F. Moore v. Stanley F. Sievers, 336 III. 316;
168 N.E. 259 (1929)(The maxim that fraud vitiates every transaction into which it enters"...) In
re village of Willowbrook, 37 III. App. 2d 393 (1962) ("It is axiomatic that fraud vitiates
everything".); Dunham v Dunham, 57 III. App. 475 (1894), affirmed 162 III. 589 (1896); Skelly
Oil Co. v Universal Oil Products Co., 338 III. App 79, 86 N.E. 2d 875, 883-4 (1949); Thomas
Stasel v. The American Home Security Corporation, 362 III. 350; 199 N.E. 798 (1935) Under
Illinois and Federal law, when any officer of the court has committed "fraud upon the court "
the orders and the judgment of that court are void, of no legal force or effect.

Courts have repeatedly held that positive proof of the partiality of a judge is not a requirement,
only the appearance of partiality. Liljeberg v health Services Acquisition Corp., 486 U.S. 847,
108 S. Ct. 2194 (1988) ( what matters is not the reality of bias or prejudice but it's
appearance); United States v Balistrieri, 779 F. 2d 1191 ( 7th Cir. 1985) (Section 455(a) " is
directed against the appearance of partiality, whether or not the judge is actually biased."
("section 455(a) of the Judicial Code, 28 U.S.C §455(a), is not intended to protect litigants from
actual bias in their judge but rather to promote public confidence in the impartiality of the
judicial process.").

The court also stated that Section 455(a) "requires a judge to recuse himself in any proceeding
in which her or his impartiality might reasonability be questioned. " Taylor v. O'Grady, 888 F.2d
1189 (7th Cir. 1989). In Pfizer Inc. v Lord 456 F.2d 532 (8th Cir. 1972), the court stated that " It is
important that the litigant not only actually receives justice, but that he believes that he
received justice."

The supreme court has ruled and has reaffirmed the principle that" justice must satisfy the
appearance of justice "Levine v United States, 362 U.S. 610, 80 S. Ct. 1038 (1960), citing Offutt
v. United States, 348 U.S. 11,14, 75 S. Ct. 11,13 (1954). A judge receiving a bribe from an

25.

l

4

t

.

interesting party over which he is presiding, does not give the appearance of justice. Recusal
under Section 455 is self - executing; a party need not file affidavits in support of recusal and
the judge is obligated to recuse herself or himself sua sponte under the stated circumstances."
Taylor v. O' Grady, 888 F. 2d 1189 (7th Cir. 1989). Further, the judge has a legal duty to
disqualify himself even if there is no motion asking for his disqualification. The Seventh Circuit
Court of Appeals further stated that " We think that this language (455(a) imposes a duty on
the judge to act sua sponte, even if no motion or affidavit is filed. "Balistrieri, at 1202. Judges
do not have discretion not to disqualify themselves. By law, they are bound to follow the Law.

Should a judge not disqualify himself as required by law, then the judge has given another
example of his "appearance of partiality " which, possibly, further disqualifies the judge. Should
another judge not accept the disqualification of the judge then the second judge has evidenced
an "appearance of partiality" and possibly disqualified himself/herself. None of the orders
issued by any judge who has been disqualified by law would appear to be valid. It would appear
that they are void as a matter of law, and are of no legal force or effect. Should a judge not
disqualify himself, then the judge is violation of the Due Process Clause of the U.S.
Constitution. United States v Sciuto, 521 F. 2d 842 845 (7th Cir. 1996) (" The right to a tribunal
free from bias or prejudice is based, not on section 144, but on the Due Process Clause.")

If you are non- represented litigant, and should the court not follow the law as to nonrepresented litigants, then the judge has expressed an "appearance of partiality" and, under
the law, it would seem that he/she has disqualified him/herself.

However, since not all judges keep up to date in the law, and since not all judges follow the law,
it is possible that a judge may not know the ruling of the U.S. Supreme Court and the other
courts on the subject. Notice that it states "disqualification " is required and that a judge must
be disqualified" under certain circumstances.

The Supreme Court has also held that if a judge wars against the constitution, or if he acts
without jurisdiction, he has engaged in treason to the constitution. If a Judge acts after he or
she has been automatically disqualified by law, then he or she is acting without jurisdiction
and that suggest that he is then engaging in criminal acts of treason, and may be engaged in
extortion and the interference with interstate commerce. Courts have repeatedly ruled that
judges have no immunity for their criminal acts. Since both treason and the interference with
interstate commerce are criminal acts, no judge has immunity to engage in such acts.
26.

REASONS FOR GRANTING THE PETITION

The Jurisdiction of this court is invoked under 28 U.S.C. § 1257(a).

The effect of corruption has many dimensions related to the political, economic, social and
environmental effects. In political sphere, corruption impedes democracy and the rule of law. In
a democratic system, public institutions and offices may lose their legitimacy when they misuse
their power for private interest. Corruption may also result in negative consequences such as
encoring cynicism and reducing interest of political participation, political instability, reducing
political competition, reducing the transparency of political decision making, distorting political
development and sustaining political activity based on patronage, clientelism and money, etc.

In our society, the impact of corruption is often manifested through political intolerance,
problems of accountability and transparency to the public, low level of democratic culture,
principles of consultation and participation dialogue among others.

The economic effects of corruption can be categorized as minor and major. However, both in
one way or the other have serious impact on the individual community and country. First and
foremost, corruption leads to the depletion of national wealth. It is often responsible for
increased costs of goods and services, the funneling of scarce public resources to uneconomic
high profile projects at the expense of the much needed projects such as schools, hospitals and
roads, or the supply of potable water, diversion and misallocation of resources, conversion of
public wealth to private and personal property, inflation, imbalanced economic development
weakening work ethics and professionalism, hindrance of the development of fair in market
structures and unhealthy competition there by deterring Competition. Large scale corruption
hurts the economy and impoverishes entire population.

In social sphere, corruption discourages people to work together for the common good.
Frustration and general apathy among the public result in a weak civil society. Demanding and
paying bribes become the tradition. It also results in social inequality and widened gap between
the rich and poor, civil strive, increased poverty and lack of basic need like food, water and
drugs, jealousy and hatred and insecurity.

27.

Closer to home, corruption Is said to have been factors for the down fall of past regimes by
way of undermining the legitimacy of the governments and weakening their structures,
reducing productivity, hindering development, worsening poverty, marginalizing the poor,
creating social unrest and then to their downfall.

CONCLUSION
For the reasons stated in this petition for writ of certiorari, petitioner Brenda White prays this
Court issue a writ of certiorari.

Respectfully Submitted,

Date: June

h

,2021

28.

